No. 19-1176

 

IN THE

Supreme Court of the United States

Jim YOVINO,
FRESNO COUNTY SUPERINTENDENT OF SCHOOLS,

Petitioner,
v.
AILEEN Rizo,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

BRIEF FOR AMICI CURIAE
CHAMBER OF COMMERCE
OF THE UNITED STATES OF AMERICA
AND NATIONAL FEDERATION
OF INDEPENDENT BUSINESS
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,277 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on vy 2020.
COLIN CASEY Hof
N

OTARY PUBLIC
District of Columbia

My commission expires April 14, 2022.
